CERTIFICATION
As required by Supreme Court Rule 33.1(h), I
certify that the document contains 8,555 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on September 15, 2021
s/Gregory A. Nahas
Gregory A. Nahas, Esq.
Counsel of Record
PARDALIS & NOHAVICKA, LLP
Counsel for Petitioner
3510 Broadway, Suite 201
Astoria, New York 11106
718-777-0400
greg@pnlawyers.com

